APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
No. 19-939
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A SUMMARY ORDER FILED ON OR AFTER JANUARY 1,
2007, IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE 32.1
AND THIS COURT’S LOCAL RULE 32.1.1. WHEN
CITING A SUMMARY ORDER IN A DOCUMENT
FILED WITH THIS COURT, A PARTY MUST CITE
EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE NOTATION
“SUMMARY ORDER”). A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY OF IT ON ANY
PARTY NOT REPRESENTED BY COUNSEL.
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 16th day of December,
two thousand nineteen.
Present:

ROBERT D. SACK,
BARRINGTON D. PARKER,
DENNY CHIN,
Circuit Judges.
1a

_________________________________________________
ROBERT DOYLE,,

Plaintiff-Appellant,
-vDOUGLAS C. PALMER, in his official capacity
as the Clerk of the United States District
Court for the Eastern District of New York,

Defendant-Appellee.
_________________________________________________
FOR PLAINTIFF-APPELLANT:
TODD C. BANK, Kew Gardens, NY
FOR DEFENDANT-APPELLEE:
MATTHEW J. MODAFFERI, Assistant United States
Attorney (Rachel G. Balaban, Varuni Nelson, Assistant
United States Attorneys, on the brief), for Richard P.
Donoghue, United States Attorney for the Eastern
District of New York, Brooklyn, NY.

Appeal from the United States District Court for the
Eastern District of New York (Weinstein, J.).
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgment of said District Court be and it hereby is
AFFIRMED.

2a

Plaintiff-appellant Robert Doyle (“Doyle”) appeals
from a judgment of the district court entered May 28,
2019, dismissing his claims against defendant-appellee
Douglas C. Palmer, Clerk of Court of the United States
District Court for the Eastern District of New York
(“Defendant”). By memorandum and order entered
March 28, 2019, the district court granted Defendant’s
motion to dismiss the amended complaint pursuant to
Rule 12(b)(6) for failure to state a claim.
Doyle, an attorney, challenges the constitutionality
of Eastern District of New York (“E.D.N.Y.”) Local Rule
1.3(a), which requires applicants seeking bar
admission in the district to submit an affidavit from an
E.D.N.Y.-barred attorney attesting to the applicant’s
good moral character (the “sponsor affidavit”). Doyle
claims Local Rule 1.3(a) is unconstitutional for three
reasons: (1) Congress unconstitutionally delegated its
rulemaking power to the Judiciary; (2) the rule violates
the Due Process Clause of the Fifth Amendment; and
(3) the rule violates the First Amendment. We assume
the parties’ familiarity with the underlying facts,
procedural history, and issues on appeal.
“We review a district court’s grant of a motion to
dismiss under Rule 12(b)(6) de novo.” Hernandez v.
United States, 939 F.3d 191, 198 (2d Cir. 2019)
(citation omitted). “To survive a motion to dismiss, a
complaint must contain sufficient factual matter,
accepted as true, to state a claim to relief that is
plausible on its face.” Ashcroft v. Iqbal, 556 U.S. 662,
678, 129 S.Ct. 1937, 173 L.Ed.2d 868 (2009) (internal
quotation marks omitted).
3a

For substantially the reasons stated by the district
court, we affirm. The complaint fails to state a
plausible claim for relief. Doyle’s claim that the
requirement of a sponsor affidavit is somehow
unconstitutional is specious, and we reject it.
We have considered all of Doyle’s arguments and
conclude they are without merit. For the foregoing
reasons, we AFFIRM the order of the district court.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[s/ Catherine O’Hagan Wolfe]

4a

APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
ROBERT DOYLE,
Plaintiff,
-againstDOUGLAS PALMER, Clerk of the Federal
District Court, Eastern District of New York,
Defendant.
MEMORANDUM & ORDER
18-CV-4439
JACK B. WEINSTEIN, Senior United States
District Judge:
Parties

Appearances

Plaintiff

Todd C. Bank
Law Office of Todd C. Bank
119-40 Union Turnpike, Fourth Fl.
Kew Gardens, NY 11415
718-520-7125

5a

Defendant

I.

Matthew J. Modafferi
United States Attorney’s Office
Eastern District of New York
271 Cadman Plaza East
Brooklyn, NY 11201
718-254-6229
Introduction

This case arises out of a challenge to Local Rule
1.3(a) of the United States District Court for the
Eastern District of New York’s “sponsor affidavit
requirement.” Applicants to the bar of the Eastern
District of New York must submit an affidavit from a
current member of the bar, who has known the
applicant for a minimum of one year, stating what the
attorney knows of the applicant’s character and
experience.
Plaintiff Robert Doyle brings this action against
the Clerk of the Federal District Court for the Eastern
District of New York. He seeks both a declaration that
the sponsor affidavit requirement is unconstitutional
and a writ of mandamus to allow plaintiff to apply for
admission to the Eastern District of the New York bar
without complying with the sponsor affidavit
requirement.
Defendant moves to dismiss pursuant to Rule
12(b)(1) for lack of subject matter jurisdiction and
under Rule 12(b)(6) for failure to state a claim. The
Rule 12(b)(6) motion is granted.

6a

II.

Claims

First, plaintiff challenges the foundation of the
federal courts’ authority to adopt rules governing the
admission of attorneys by arguing that Local Rule
1.3(a)’s sponsor affidavit requirement is the result of
an unconstitutional delegation of power by Congress to
the Judiciary. Second, he claims that the sponsor
affidavit requirement contravenes the Fifth
Amendment’s Due Process and Equal Protection
Clauses. Third, he alleges that it violates his rights
under the First Amendment.
None of these claims have merit.
“[A] district court has discretion to adopt local rules
that are necessary to carry out the conduct of its
business. This authority includes the regulation of
admissions to its own bar.” Frazier v. Heebe, 482 U.S.
641, 645, 107 S.Ct. 2607, 96 L.Ed.2d 557 (1987)
(citations omitted); see also 28 U.S.C. § 1654; 28 U.S.C.
§ 2071; Fed. R. Civ. P. 83(a)(1) (“After giving public
notice and an opportunity for comment, a district court,
acting by a majority of its district judges, may adopt
and amend rules governing its practice.”); Chambers v.
NASCO, Inc., 501 U.S. 32, 43, 111 S.Ct. 2123, 115
L.Ed.2d 27 (1991) (the scope of the federal court’s
inherent power includes “the power to control
admission to its bar and to discipline attorneys who
appear before it” (citation omitted) ).
“The practice of law is not a matter of grace, but of
right for one who is qualified by his learning and his
7a

moral character.” Baird v. State Bar of Arizona, 401
U.S. 1, 8, 91 S.Ct. 702, 27 L.Ed.2d 639 (1971) (citations
omitted). The sponsor affidavit requirement is a valid
exercise of the Eastern District of New York’s
judiciary’s authority to adopt local rules related to an
applicant’s fitness to practice law. See In re Sutter, 543
F.2d 1030, 1037 (2d Cir. 1976) (“Whether grounded
upon the inherent power of the court or upon the rulemaking power conferred by 28 U.S.C. § 2071, the
operative principle is the same: if the local rule is
related to the management of the court’s business and
it is not inconsistent with a statute or other rule or the
Constitution, then it is valid.”); Ex parte Secombe, 60
U.S. 9, 13, 19 How. 9, 15 L.Ed. 565 (1856) (“[I]t rests
exclusively with the court to determine who is
qualified to become one of its officers ....”). The court
reasonably depends upon a lawyer’s veracity and good
faith and is therefore entitled to investigate the
character of those who seek to practice before it.
Relevant is a review of the local rules for the
United States courts. See, infra, Section V(A); Exhibit
A (table summarizing court’s survey of federal courts’
rules). It demonstrated that admission requirements
similar to the sponsor affidavit requirement of the
Eastern District have been widely adopted by federal
courts. See Ex. A (finding that 47 of 94 district courts
require a sponsoring attorney to state what she or he
knows of the applicant’s character and/or experience at
the bar; 6 require the sponsoring attorney know the
applicant for at least one year). In Exhibit A, attached,
those courts requiring the sponsoring attorney know
the applicant for at least a fixed amount of time are
8a

marked with an asterisk.
The court reviewed the admission materials for
each federal court. But, the application forms for
several district courts—Western District of Arkansas,
Central District of California, Eastern District of
California, Southern District of California, District of
Colorado, Northern District of Florida, Southern
District of Florida, District of Kansas, District of
Massachusetts, District of Nebraska, District of North
Dakota, Western District of Wisconsin—were not
readily accessible.
There is no legal basis for the elimination of the
sponsor affidavit requirement, but it may, in some few
instances, make it more difficult to gain admission. For
this reason, the requirement that the sponsoring
attorney know the applicant for a year should probably
be eliminated. Most courts do not require the sponsor
to have known the applicant for any amount of time
prior to commenting on their character and experience.
III.

Background
A.

Challenged Rule

Local Rule 1.3(a) sets out the requirements for
admission to the bar of the Eastern District of New
York. It provides, in relevant part:
“[An] application for [bar] admission ...
shall ... be accompanied by an affidavit of

an attorney of this Court who has known
9a

the applicant for at least one year, stating
when the affiant was admitted to practice
in this court, how long and under what
circumstances the attorney has known
the applicant, and what the attorney

knows of the applicant’s character and
experience at the bar.”
(emphasis added).
The form affidavit that sponsoring attorneys are asked
to fill out is simple, to the point, and should present no
difficulty to an applicant. It is set out below:
[form affidavit]
B.

Factual Allegations

Plaintiff is an attorney admitted to practice in the
State of New York. See Hr’g Tr. 11:1–5, Feb. 19, 2019.
He allegedly wishes to become a member of the bar in
the Federal District Court for the Eastern District of
New York. Am. Compl. ¶ 23. But, he contends he
cannot comply with the sponsor affidavit requirement
without compromising his beliefs or his self-identity.
See id. ¶¶ 23, 29, 33.
To enable a current member of the bar to provide
a reasonably accurate assessment of his character,
Doyle alleges that he must engage in certain
“necessary activities.” Id. ¶ 24. They include the
“disclosure, to a [s]ponsor, of [his] beliefs regarding
philosophical, religious, political, social, moral, and
ethical matters ... [and] of a sufficient number of
10a

experiences of [his] that demonstrate consistency, or
inconsistency, with any of [his] [p]ersonal [b]eliefs.” Id.
¶¶ 25–26. He contends that it “would be virtually
impossible for [him] to engage in the [n]ecessary
[a]ctivities to a degree that would avoid the nonnegligible risk ... that the [s]ponsor would be
untruthful in ‘stating what [he] knows of [his]
character.’” Id. ¶ 31. He believes that taking this “risk”
is immoral and claims that this belief is “fundamental
to his self-identity.” Id. ¶¶ 33, 34.

IV.

Motion to Dismiss Standard

To grant a motion to dismiss for failure to state a
claim upon which relief can be granted, “a court must
accept the plaintiff’s factual allegations as true,
drawing all reasonable inferences in plaintiff’s favor.”
Clark St. Wine & Spirits v. Emporos Sys. Corp., 754
F.Supp.2d 474, 479 (E.D.N.Y. 2010).
V.

Analysis
A.

Survey of Federal Courts’ Local

Rules
A review of the local rules for the 94 United States
district courts, the 12 United States circuit courts, and
the United States Supreme Court was made under this
court’s direction ex mero motu, see Ex. A (survey of
federal courts’ local rules). See Fed. R. Evid. 201(b)(2)
(courts may take judicial notice of facts that can be
readily determined from sources whose accuracy
11a

cannot be reasonably questioned). The survey revealed
that Local Rule 1.3(a)’s sponsor affidavit requirement
is, in general, consistent with the admission
requirements of other federal courts.
United States courts have largely adopted their
own sponsor requirements: 47 district courts, 8 circuit
courts, and the Supreme Court require a sponsoring
attorney to affirm that the applicant possesses good
moral and professional character. See Ex. A. 24 district
courts and the Supreme Court require affirmation from
two or more sponsors. See id.
Relatively rare is the Eastern District’s Local Rule
1.3(a)’s requirement that the sponsor has known the
applicant for at least one year. See id. Only 5 other
district courts impose a similar condition. See id.
(finding that the District for District of Columbia,
Northern District of Illinois, District of Maryland,
Southern District of New York, and Southern District
of Texas require that the sponsor knows the applicant
for at least one year; the District of Connecticut and
District of Vermont for at least 6 months). This
requirement appears unnecessary. A sponsoring
lawyer should not need to know an applicant for a year
to fairly assess his or her character and experience. It
creates avoidable problems for first-time applicants, as
well for those attorneys new to the New York area, who
may not have access to the same networks as many of
their peers.
It is recommended that the judges of the Eastern
District of New York revise Local Rule 1.3(a) by
12a

removing the condition that the sponsoring attorney
must have known the applicant for a minimum of one
year. If the change is made, it is probably desirable to
coordinate the shift with the Federal District Court for
the Southern District of New York whose local rules
mirror those of the Eastern District. On a rare
occasion, the one-year requirement may needlessly
exclude a worthy attorney who lacks the requisite
professional or social connections. In our unequal
society, we should be encouraging those on the lower
end of the socioeconomic ladder, with less
acquaintanceships with lawyers, to enter the legal
profession as a means to move up in status and to
support themselves and their families—as well as to
help others.
B.
Constitutional Delegation of Power
by Congress to the Judiciary
Doyle claims that Local Rule 1.3(a)’s sponsor
affidavit requirement is unlawful because it is the
result of an unconstitutional delegation of legislative
power to the federal courts. The crux of his argument
is that Congress cannot delegate the power to enact a
rule like the sponsor affidavit requirement because it
does not have the power to enact such a rule itself
“whose application ... in a particular district court is
not based upon the presence or absence of any
particular rationale of factors.” See Pl.’s Mem. Opp’n at
13, ECF No. 27, Dec. 3, 2018.
Plaintiff’s claim is baseless. See Mistretta v.
United States, 488 U.S. 361, 387, 109 S.Ct. 647, 102
13a

L.Ed.2d 714 (1989) (“Congress has undoubted power to
regulate the practice and procedure of federal courts,
and may exercise that power by delegating to this or
other federal courts authority to make rules not
inconsistent with the statutes or constitution of the
United States.” (quotation marks and citation
omitted)). As the district court in In re Frazier put it:
Congress possesses the power to establish
courts inferior to the Supreme Court and
to make all laws necessary and proper for
executing that power. U.S. Const., art. I,
§ 8, cl. 9; U.S. Const. art. I, § 8, cl. 18. As
part of the power to make necessary
regulations in establishing a lower court
system, Congress can prescribe rules for
practice and procedure in those courts.
Congress has not exercised this power
directly, however, but has instead
delegated the rule-making authority to
the courts themselves.... So long as the
lower courts do not exceed the authority
delegated to them, they can prescribe
rules of practice to the same extent as
could Congress if it exercised the power
directly.
594 F.Supp. 1173, 1178 (E.D. La. 1984), aff’d, 788 F.2d
1049 (5th Cir. 1986), rev’d on other grounds, Frazier v.
Heebe, 482 U.S. 641, 107 S.Ct. 2607, 96 L.Ed.2d 557
(1987).
Congress delegated to federal courts the express
14a

authority to enact desirable local rules to conduct the
business before them. See 28 U.S.C. § 1654; 28 U.S.C.
§ 2071. Section 35 of the Judiciary Act of 1789, Act of
September 25, 1789, Ch.20, 1 Stat. 73, 92, now codified
as section § 1654 of Title 28, provides:
In all courts of the United States the
parties may plead and conduct their own
cases personally or by counsel as, by the
rules of such courts, respectively, are
permitted to manage and conduct causes
therein.
Section 2071(a) of Title 28 provides:
The Supreme Court and all courts
established by Act of Congress may from
time to time prescribe rules for the
conduct of their business. Such rules
shall be consistent with Acts of Congress
and rules of practice and procedure
prescribed under section 2072 of this
title.
28 U.S.C. § 1654 and 28 U.S.C. § 2071, along with Fed.
R. Civ. P. 83, “authorize the adoption of rules for
conducting court business and this includes reasonable
standards for admission to practice for the court.” In re
G.L.S., 745 F.2d 856, 859 (4th Cir. 1984) (emphasis
added). The sponsor affidavit requirement is a lawful
exercise of the court’s authority to regulate admission
to its own bar. See Frazier, 482 U.S. at 645, 107 S.Ct.
2607; Sanders v. Russell, 401 F.2d 241, 245 (5th Cir.
15a

1968) (“The district courts have broad discretion in
prescribing requirements for admission to practice
before them ... [and] ha[ve] a valid interest in
regulating the qualifications and conduct of counsel
....”).
This claim is meritless and must be dismissed.
C.

Fifth Amendment Claims

Construed liberally, the amended complaint raises
Fifth Amendment Due Process and Equal Protection
claims against the defendant. Both fail as a matter of
law.
There is not the slightest hint that the Rule has
ever been employed based on race, gender, or other
discriminatory way. See Thiel v. Southern Pacific Co.,
328 U.S. 217, 223, 66 S.Ct. 984, 90 L.Ed. 1181 (1946)
(“Wage earners, including those who are paid by the
day, constitute a very substantial portion of the
community, a portion that cannot be intentionally and
systematically excluded in whole or in part without
doing violence to the democratic nature of the jury
system.”).
Doyle cannot establish a deprivation of a liberty
interest or property right necessary to prevail on a Due
Process claim. See Sutera v. Transportation Sec.
Admin., 708 F.Supp.2d 304, 313 (E.D.N.Y. 2010) (“To
prevail on either a procedural or a substantive due
process claim, a claimant must establish that he
possessed a liberty or property interest of which the
16a

defendants deprived him.”); Maynard v. United States
Dist. Court, 701 F.Supp. 738, 743 (C.D. Cal. 1988)
(“[C]ourts have held that the right to practice law is
not a property right protected by the Due Process
Clause.” (citing In re Roberts, 682 F.2d 105, 107 (3rd
Cir. 1982) ); Theard v. United States, 354 U.S. 278,
281, 77 S.Ct. 1274, 1 L.Ed.2d 1342 (1957)
(“Membership in the bar is a privilege burdened with
conditions.” (citation omitted) ).
Nor can he demonstrate that the sponsor affidavit
requirement violates the Equal Protection Clause.
“Whether embodied in the Fourteenth Amendment or
inferred from the Fifth, equal protection is not a
license for courts to judge the wisdom, fairness, or logic
of legislative choices.... [A rule] that neither proceeds
along suspect lines nor infringes fundamental
constitutional rights must be upheld against equal
protection challenge if there is any reasonably
conceivable state of facts that could provide a rational
basis for the [rule].” F.C.C. v. Beach Commc’ns, Inc.,
508 U.S. 307, 313, 113 S.Ct. 2096, 124 L.Ed.2d 211
(1993).
“Under rational basis review, the challenged rule
‘comes ... bearing a strong presumption of validity, and
those attacking the rationality of the [rule] have the
burden to negative every conceivable basis which
might support it.’” Nat’l Ass’n for the Advancement of
Multijurisdiction Practice v. Lynch, 826 F.3d 191, 196
(4th Cir. 2016) (alteration in original) (citing F.C.C. v.
Beach Commc’ns, Inc., 508 U.S. at 313, 113 S.Ct.
2096). “Where there are ‘plausible reasons’ for
17a

Congress’ action, ‘our inquiry is at an end.’” F.C.C. v.
Beach Commc’ns, Inc., 508 U.S. at 313–14, 113 S.Ct.
2096 (citation omitted).
No impairment of a fundamental right or
classification based on a suspect class can be
established. See, e.g., Giannini v. Real, 911 F.2d 354,
358 (9th Cir. 1990) (“There is no fundamental right to
practice law ... [and] [a]ttorneys do not constitute a
suspect class.”); Brooks v. Laws, 208 F.2d 18, 28 (D.C.
Cir. 1953) (“There is no inherent right to practice law.
The right arises after qualification under the rules has
been established.”).
Local Rule 1.3(a)’s requirement that a sponsoring
attorney provide his or her knowledge of the
applicant’s qualifications, experience, and good moral
character is rationally related to the applicant’s fitness
to practice law. See, e.g., Schware v. Bd. of Bar Exam.
of State of N.M., 353 U.S. 232, 239, 77 S.Ct. 752, 1
L.Ed.2d 796 (1957) (“A State can require high
standards of qualification, such as good moral
character or proficiency in its law, before it admits an
applicant to the bar, but any qualification must have
a rational connection with the applicant’s fitness or
capacity to practice law.” (citations omitted) ). It is
necessary for the court to rely upon the good moral
character and the intellectual capability of the
attorneys before it, partly to protect the clients and
partly to protect the court and the public. See Ex parte
Secombe, 60 U.S. at 13, 19 How. 9; Randall v.
Brigham, 74 U.S. 523, 540, 7 Wall. 523, 19 L.Ed. 285
(1868) (“The authority of the court over its attorneys
18a

and counsellors is of the highest importance.”).
Plaintiff’s unsupported claims alleging Fifth
Amendment violations are dismissed.
D.

First Amendment Claims

Plaintiff’s allegations that the sponsor affidavit
requirement violates his rights under the First
Amendment are not actionable.
“Generally, the government may license and
regulate those who would provide services to their
clients for compensation without running afoul of the
First Amendment.” NAAMJP v. Howell, 851 F.3d 12,
19 (D.C. Cir. 2017) (quotation marks and citations
omitted). “A lawyer’s procurement of remunerative
employment is a subject only marginally affected with
First Amendment concerns. It falls within the ... proper
sphere of economic and professional regulation.”
Ohralik v. Ohio State Bar Ass’n, 436 U.S. 447, 459, 98
S.Ct. 1912, 56 L.Ed.2d 444 (1978).
The sponsor affidavit requirement does not violate
the First Amendment. It does not target any speech
based on its content or on the viewpoint of the speaker.
Any possible miniscule impact that it may have on
expressive activities does not rise to the level of a
constitutional violation. See Boy Scouts of America v.
Dale, 530 U.S. 640, 650, 120 S.Ct. 2446, 147 L.Ed.2d
554 (2000). It is nothing more than a standard
regulation of the legal profession that, as noted above,
see, supra, Section V(C), passes rational basis review.
19a

See Lowe v. SEC, 472 U.S. 181, 228, 105 S.Ct. 2557, 86
L.Ed.2d 130 (1985) (“Regulations on entry into a
profession, as a general matter, are constitutional if
they ‘have a rational connection with the applicant’s
fitness or capacity to practice’ the profession.” (citation
omitted) ).
The court’s rule merely requires that an applicant
demonstrates his character and experience to a
member of the Eastern District of New York bar. See,
supra, Section III.A. It is essentially a request for a
reference who can comment reliably on the applicant’s
general fitness to practice law. It does not require a
comprehensive survey of the applicant’s legal
experience or an explanative analysis of her or his
ethical beliefs. The court may reasonably inquire
generally into the personal and professional
background of applicants to its bar without
contravening the First Amendment. See Howell, 851
F.3d at 19; cf. Goldfarb v. Va. State Bar, 421 U.S. 773,
792, 95 S.Ct. 2004, 44 L.Ed.2d 572 (1975) (“The
interest ... in regulating lawyers is especially great
since lawyers are essential to the primary
governmental function of administering justice, and
have historically been ‘officers of the courts.’” (citations
omitted) ).
Construing the facts in the manner most helpful to
the plaintiff, Doyle cannot establish a violation of his
freedom of association. See, e.g., Roberts v. U.S.
Jaycees, 468 U.S. 609, 623, 104 S.Ct. 3244, 82 L.Ed.2d
462 (1984) (“The right to associate for expressive
purposes is not ... absolute. Infringements on that right
20a

may be justified by regulations adopted to serve
compelling state interests, unrelated to the
suppression of ideas, that cannot be achieved through
means significantly less restrictive of associational
freedoms.” (citations omitted) ). He cannot establish a
violation of his freedom of conscience. See, e.g,
Commack Self-Service Kosher Meats, Inc. v. Hooker,
680 F.3d 194, 212 (2d Cir. 2012) (“[W]hen *305 the
government seeks to enforce a law that is neutral and
generally applicable, it need only demonstrate a
rational basis for its enforcement, even if enforcement
of the law incidentally burdens religious practices.”
(quotation marks and citations omitted) ).
Plaintiff’s First Amendment claims lack merit and
are dismissed.
VI.

Conclusion
A.

Proposal to Revise Local Rule 1.3(a)

This court suggests that the Eastern District of
New York amend Local Rule 1.3(a) by removing the
requirement that the sponsor “has known the
applicant for at least one year.” The condition appears
unnecessary for an attorney of the court to provide a
fair assessment of an applicant’s character and
experience.
B.

Defendant’s Motion to Dismiss

Defendant’s motion to dismiss the amended
complaint is granted pursuant to Rule 12(b)(6).
21a

Plaintiff’s claims are dismissed with prejudice.
Enter judgment in favor of the defendant.
SO ORDERED.
[signature]
Jack B. Weinstein
Senior United States
District Judge
Date: March 18, 2019
Brooklyn, New York

VII.
Exhibit A: Survey of Federal Court Local
Rules—Requirements for Attorneys to Sponsor
Applicant’s Admission to the Bar
[“ Survey of Federal Court Local
Rules—Requirements for Attorneys to
Sponsor Applicant’s Admission to the Bar”]

22a

APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 31 st day of January,
two thousand twenty.
ORDER
No. 19-939

_________________________________________________
ROBERT DOYLE,,

Plaintiff-Appellant,
-vDOUGLAS C. PALMER, in his official capacity
as the Clerk of the United States District
Court for the Eastern District of New York,

Defendant-Appellee.
_________________________________________________
Appellant, Robert Doyle, filed a petition for panel
rehearing, or, in the alternative, for rehearing en banc.
The panel that determined the appeal has considered
23a

the request for panel rehearing, and the active
members of the Court have considered the request for
rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[s/ Catherine O’Hagan Wolfe]

24a

